App. 1
Addendum—Statutory Provisions
28 U.S.C. § 1602 provides:
§ 1602. Findings and declaration of purpose
The Congress finds that the determination by
United States courts of the claims of foreign states
to immunity from the jurisdiction of such courts
would serve the interests of justice and would protect the rights of both foreign states and litigants
in United States courts. Under international law,
states are not immune from the jurisdiction of foreign courts insofar as their commercial activities
are concerned, and their commercial property may
be levied upon for the satisfaction of judgments
rendered against them in connection with their
commercial activities. Claims of foreign states to
immunity should henceforth be decided by courts
of the United States and of the States in conformity with the principles set forth in this chapter.
28 U.S.C. § 1604 provides:
§ 1604. Immunity of a foreign state from
jurisdiction
Subject to existing international agreements
to which the United States is a party at the
time of enactment of this Act a foreign state
shall be immune from the jurisdiction of the
courts of the United States and of the States
except as provided in sections 1605 to 1607 of
this chapter.

App. 2
28 U.S.C. § 1605 provides in relevant part:
§ 1605. General exceptions to the jurisdictional immunity of a foreign state
(a) A foreign state shall not be immune from the
jurisdiction of courts of the United States or of the
States in any case—
...
(2) in which the action is based upon a commercial activity carried on in the United
States by the foreign state; or upon an act performed in the United States in connection
with a commercial activity of the foreign state
elsewhere; or upon an act outside the territory
of the United States in connection with a commercial activity of the foreign state elsewhere
and that act causes a direct effect in the
United States;
(3) in which rights in property taken in violation of international law are in issue and
that property or any property exchanged for
such property is present in the United States
in connection with a commercial activity carried on in the United States by the foreign
state; or that property or any property exchanged for such property is owned or operated by an agency or instrumentality of the
foreign state and that agency or instrumentality is engaged in a commercial activity in
the United States;
(4) in which rights in property in the United
States acquired by succession or gift or rights

App. 3
in immovable property situated in the United
States are in issue;
(5) not otherwise encompassed in paragraph
(2) above, in which money damages are sought
against a foreign state for personal injury or
death, or damage to or loss of property, occurring in the United States and caused by the
tortious act or omission of that foreign state
or of any official or employee of that foreign
state while acting within the scope of his office
or employment; except this paragraph shall
not apply to—
(A) any claim based upon the exercise or
performance or the failure to exercise or
perform a discretionary function regardless of whether the discretion be abused,
or
(B) any claim arising out of malicious
prosecution, abuse of process, libel, slander, misrepresentation, deceit, or interference with contract rights;
...
28 U.S.C. § 1605A provides in relevant part:
§ 1605A. Terrorism exception to the jurisdictional immunity of a foreign state
(a)

In general.—
(1) No immunity.—A foreign state shall not
be immune from the jurisdiction of courts of
the United States or of the States in any
case not otherwise covered by this chapter in

App. 4
which money damages are sought against a
foreign state for personal injury or death that
was caused by an act of torture, extrajudicial
killing, aircraft sabotage, hostage taking, or
the provision of material support or resources
for such an act if such act or provision of material support or resources is engaged in by an
official, employee, or agent of such foreign
state while acting within the scope of his or
her office, employment, or agency.
(2) Claim heard.—The court shall hear a claim
under this section if—
(A)(i)(I) the foreign state was designated as
a state sponsor of terrorism at the time the act
described in paragraph (1) occurred, or was so
designated as a result of such act, and, subject
to subclause (II), either remains so designated
when the claim is filed under this section or
was so designated within the 6-month period
before the claim is filed under this section; or
(II) in the case of an action that is refiled
under this section by reason of section
1083(c)(2)(A) of the National Defense Authorization Act for Fiscal Year 2008 or is filed under this section by reason of section 1083(c)(3)
of that Act, the foreign state was designated
as a state sponsor of terrorism when the original action or the related action under section
1605(a)(7) (as in effect before the enactment
of this section) or section 589 of the Foreign
Operations, Export Financing, and Related
Programs Appropriations Act, 1997 (as contained in section 101(c) of division A of Public
Law 104-208) was filed;

App. 5
(ii) the claimant or the victim was, at the
time the act described in paragraph (1) occurred—
(I)

a national of the United States;

(II)

a member of the armed forces; or

(III) otherwise an employee of the Government of the United States, or of an individual performing a contract awarded
by the United States Government, acting
within the scope of the employee’s employment; and
(iii) in a case in which the act occurred in the
foreign state against which the claim has been
brought, the claimant has afforded the foreign
state a reasonable opportunity to arbitrate
the claim in accordance with the accepted international rules of arbitration; or
(B) the act described in paragraph (1) is related to Case Number 1:00CV03110 (EGS) in
the United States District Court for the District of Columbia.
...
(c) Private right of action.—A foreign state that
is or was a state sponsor of terrorism as described
in subsection (a)(2)(A)(i), and any official, employee, or agent of that foreign state while acting
within the scope of his or her office, employment,
or agency, shall be liable to—
(1)

a national of the United States,

(2)

a member of the armed forces,

App. 6
(3) an employee of the Government of the
United States, or of an individual performing
a contract awarded by the United States Government, acting within the scope of the employee’s employment, or
(4) the legal representative of a person described in paragraph (1), (2), or (3),
for personal injury or death caused by acts described in subsection (a)(1) of that foreign state, or
of an official, employee, or agent of that foreign
state, for which the courts of the United States
may maintain jurisdiction under this section for
money damages. In any such action, damages may
include economic damages, solatium, pain and suffering, and punitive damages. In any such action,
a foreign state shall be vicariously liable for the
acts of its officials, employees, or agents.
...
(h)

Definitions.—For purposes of this section—
(1) the term “aircraft sabotage” has the
meaning given that term in Article 1 of the
Convention for the Suppression of Unlawful
Acts Against the Safety of Civil Aviation;
(2) the term “hostage taking” has the meaning given that term in Article 1 of the International Convention Against the Taking of
Hostages;
(3) the term “material support or resources”
has the meaning given that term in section
2339A of title 18;

App. 7
(4) the term “armed forces” has the meaning
given that term in section 101 of title 10;
(5) the term “national of the United States”
has the meaning given that term in section
101(a)(22) of the Immigration and Nationality
Act (8 U.S.C. 1101(a)(22));
(6) the term “state sponsor of terrorism”
means a country the government of which the
Secretary of State has determined, for purposes of section 6(j) of the Export Administration Act of 1979 (50 U.S.C. App. 2405(j)),
section 620A of the Foreign Assistance Act of
1961 (22 U.S.C. 2371), section 40 of the Arms
Export Control Act (22 U.S.C. 2780), or any
other provision of law, is a government that
has repeatedly provided support for acts of international terrorism; and
(7) the terms “torture” and “extrajudicial
killing” have the meaning given those terms
in section 3 of the Torture Victim Protection
Act of 1991 (28 U.S.C. 1350 note).
28 U.S.C. § 1605B provides:
§ 1605B. Responsibility of foreign states for
international terrorism against the United
States
(a) Definition. In this section, the term “international terrorism”
(1) has the meaning given the term in section 2331 of title 18, United States Code; and

App. 8
(2) does not include any act of war (as defined in that section).
(b) Responsibility of foreign states.—A foreign
state shall not be immune from the jurisdiction of
the courts of the United States in any case in
which money damages are sought against a foreign state for physical injury to person or property
or death occurring in the United States and
caused by—
(1) an act of international terrorism in the
United States; and
(2) a tortious act or acts of the foreign state,
or of any official, employee, or agent of that
foreign state while acting within the scope of
his or her office, employment, or agency, regardless where the tortious act or acts of the
foreign state occurred.
(c) Claims by nationals of the United States.—
Notwithstanding section 2337(2) of title 18, a national of the United States may bring a claim
against a foreign state in accordance with section
2333 of that title if the foreign state would not be
immune under subsection (b).
(d) Rule of construction.—A foreign state shall
not be subject to the jurisdiction of the courts of
the United States under subsection (b) on the basis of an omission or a tortious act or acts that constitute mere negligence.

App. 9
28 U.S.C. § 1606 provides:
§ 1606. Extent of liability
As to any claim for relief with respect to which a
foreign state is not entitled to immunity under
section 1605 or 1607 of this chapter, the foreign
state shall be liable in the same manner and to the
same extent as a private individual under like circumstances; but a foreign state except for an
agency or instrumentality thereof shall not be liable for punitive damages; if, however, in any case
wherein death was caused, the law of the place
where the action or omission occurred provides, or
has been construed to provide, for damages only
punitive in nature, the foreign state shall be liable
for actual or compensatory damages measured by
the pecuniary injuries resulting from such death
which were incurred by the persons for whose benefit the action was brought.
22 U.S.C. § 2370 provides in relevant part:
§ 2370. Prohibitions against furnishing assistance
...
(e) Nationalization, expropriation or seizure of
property of United States citizens, or taxation or
other exaction having same effect; failure to compensate or to provide relief from taxes, exactions,
or conditions; report on full value of property by
Foreign Claims Settlement Commission; act of
state doctrine

App. 10
(1) The President shall suspend assistance to the
government of any country to which assistance is
provided under this chapter or any other Act when
the government of such country or any government agency or subdivision within such country
on or after January 1, 1962—
(A) has nationalized or expropriated or
seized ownership or control of property owned
by any United States citizen or by any corporation, partnership, or association not less
than 50 per centum beneficially owned by
United States citizens, or
(B) has taken steps to repudiate or nullify
existing contracts or agreements with any
United States citizen or any corporation, partnership, or association not less than 50 per
centum beneficially owned by United States
citizens, or
(C) has imposed or enforced discriminatory
taxes or other exactions, or restrictive maintenance or operational conditions, or has taken
other actions, which have the effect of nationalizing, expropriating, or otherwise seizing
ownership or control of property so owned,
and such country, government agency, or government subdivision fails within a reasonable time
(not more than six months after such action, or, in
the event of a referral to the Foreign Claims Settlement Commission of the United States within
such period as provided herein, not more than
twenty days after the report of the Commission is
received) to take appropriate steps, which may include arbitration, to discharge its obligations

App. 11
under international law toward such citizen or entity, including speedy compensation for such property in convertible foreign exchange, equivalent to
the full value thereof, as required by international
law, or fails to take steps designed to provide relief
from such taxes, exactions, or conditions, as the
case may be; and such suspension shall continue
until the President is satisfied that appropriate
steps are being taken, and provisions of this subsection shall not be waived with respect to any
country unless the President determines and certifies that such a waiver is important to the national interests of the United States. Such
certification shall be reported immediately to Congress.
Upon request of the President (within seventy
days after such action referred to in subparagraphs (A), (B), or (C) of this paragraph, the Foreign Claims Settlement Commission of the United
States (established pursuant to Reorganization
Plan No. 1 of 1954, 68 Stat. 1279) is hereby authorized to evaluate expropriated property, determining the full value of any property nationalized,
expropriated, or seized, or subjected to discriminatory or other actions as aforesaid, for purposes of
this subsection and to render an advisory report to
the President within ninety days after such request. Unless authorized by the President, the
Commission shall not publish its advisory report
except to the citizen or entity owning such property. There is hereby authorized to be appropriated
such amount, to remain available until expended,
as may be necessary from time to time to enable
the Commission to carry out expeditiously its
functions under this subsection.

App. 12
(2) Notwithstanding any other provision of law,
no court in the United States shall decline on the
ground of the federal act of state doctrine to make
a determination on the merits giving effect to the
principles of international law in a case in which
a claim of title or other right to property is asserted by any party including a foreign state (or a
party claiming through such state) based upon (or
traced through) a confiscation or other taking after January 1, 1959, by an act of that state in violation of the principles of international law,
including the principles of compensation and the
other standards set out in this subsection: Provided, That this subparagraph shall not be applicable (1) in any case in which an act of a foreign
state is not contrary to international law or with
respect to a claim of title or other right to property
acquired pursuant to an irrevocable letter of credit
of not more than 180 days duration issued in good
faith prior to the time of the confiscation or other
taking, or (2) in any case with respect to which the
President determines that application of the act of
state doctrine is required in that particular case
by the foreign policy interests of the United States
and a suggestion to this effect is filed on his behalf
in that case with the court.
...

